Record Press Inc., 229 West 3Eth Street, New York, N.Y. 10018*
Tel: (212) BI9-4949* Fax Nd. (212) BOB-3141
STATE OF NEW YORK,

)
SS:

85575

AFFIDAVIT OF SERVICE

COONTYOFNEWYORK
Edward Gutnwski being duly sworn, deposes and says that deponent is not party to the action, and is over 18 years of age.
That on the 20th day of December 2020 deponent served 3 copies of the within
PETITION FOR REHEARING
upon the attorneys at the addresses below, and by the fallowing method:
BY FIRST CLASS CERTIFIED MAIL
Zachary W. Carter
The Corporation Counsel for the
City of New York, Elmhurst Hospital et al.
Kiran Rosenilde (Of Counsel)
100 Church Street
New York New York 10007
(212)350-2334
Youdu Li
Diyin Li
03-04 Austin Street
Rego Park, NY 11374
Linngor Tsang
04-42 Booth St,
Rego Park NY 11374

I, Edward Gutowski, declare under penalty of perjury under the laws of the United States of America that the foregoing is true and correct,
executed on December 29, 2020, pursuant tD Supreme Court Rule 29.5(c). All parties required to be served, have been served.

Edward Gutowski
Swam ta me this
December 29, 2020

Jasmine Williams
Notary Public, State of New York
No. 0IWI0397949
Qualified in Queens County
Commission Expires September 10, 2023

Notary Public

Case Name: Sun v. City of New York, Docket No. 20-388

